     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




 Actions Needed to Mitigate Inconsistencies in and Lack
    of Safeguards over U.S. Salary Support to Afghan
     Government Employees and Technical Advisors




                                        October 29, 2010




SIGAR Audit-11-5 Anti-Corruption/Capacity Building
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


October 29, 2010

The Honorable Hillary Rodham Clinton
Secretary of State
The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan
The Honorable Rajiv Shah
Administrator
U.S. Agency for International Development
Mr. Earl Gast
USAID Mission Director to Afghanistan
This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of U.S. salary support to Afghan government employees and technical
advisors. It includes ten recommendations to the U.S. Ambassador to Afghanistan to improve
accountability over U.S. salary support funding and ensure more consistency in the implementation of
this assistance.

A summary of this report is on page ii. SIGAR conducted this performance audit under the authority of
Public Law No. 110-181 and the Inspector General Act of 1978, as amended. When preparing the final
report, we considered comments from U.S. Embassy Kabul. These comments indicated concurrence
with our findings and recommendations. A copy of these comments is included in appendix III of this
report.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                               Page i
                SIGAR
                                                           SIGAR Audit-11-5                                           October 2010
                                                           Actions Needed to Mitigate Inconsistencies in and
                                                           Lack of Safeguards over U.S. Salary Support to Afghan
                                                           Government Employees and Technical Advisors
Special Inspector General for Afghanistan Reconstruction
What SIGAR Reviewed
Since 2002, the United States and other international donors have spent millions of dollars to pay the salaries of
thousands of Afghan government employees and technical advisors in an effort to help build the capacity of the Afghan
government. This report assesses (1) the extent of donor salary support, (2) the impact of salary support on the
long-term capacity and sustainability of the Afghan government, (3) U.S. agencies’ implementation of salary support,
and (4) the accountability mechanisms safeguarding U.S. funds for salary support. To address these objectives, SIGAR
interviewed U.S. Agency for International Development (USAID), U.S. Embassy Kabul, Afghan government, and donor
officials. SIGAR also analyzed contracting documents, memoranda, and personnel data and examined hiring and payroll
documents and systems. We conducted our work in Washington, D.C., and Kabul, Afghanistan, from January to
September 2010 in accordance with generally accepted government auditing standards.

What SIGAR Found
Neither the Afghan government nor donors can account for the total number of Afghan government employees and
technical advisors that receive salary support or identify how much they are paid, due in large part to a lack of
transparency over that support. In February 2010, the Ministry of Finance estimated that donors were providing $45
million annually to more than 6,600 employees and advisors; however, this estimate was based on incomplete data.
U.S. agencies also lack visibility over salary support because data are not centrally managed and no single office is
responsible for collecting salary support data.
The Afghan government relies heavily on donor salary support to fill critical capacity gaps and attract and retain skilled
Afghans. However, we found that donors’ practices, including paying significantly higher salaries than the Afghan
government can sustain and providing salary support outside Afghan planning and budgeting processes, distorts the
local labor market and undermines long-term goals of building government capacity and fiscal sustainability. Some
Afghan government employees receive donor-funded salary supplements as much as 20 times the amount of their base
government salaries. Donor officials stated that they recognize the need to reform salary support to mitigate these
effects, but have not yet addressed ways to do so in a coordinated manner.
U.S. agencies—collectively one of the largest providers of salary support—have implemented that support without
consistent guidance on how and under what conditions it should be provided. Since 1988, USAID has had a policy
discouraging salary supplements to foreign government employees; however, to respond to capacity needs, the policy
has been waived at least twice for Afghanistan. USAID’s policy does not apply to other U.S. agencies nor does it include
salaries paid to technical advisors embedded in Afghan government offices. Furthermore, the Department of State does
not have a policy on salary support—either for salary supplements or for technical advisors embedded in government
offices. As a result, U.S. agencies’ ability to strategically target salary support resources at prioritized needs and goals
has been hindered.
As USAID provides more salary support funding through the Afghan government, it will rely on Afghan government
processes and systems to hire, promote, and pay salary support recipients. Although USAID has conducted an
assessment, a component of internal control, of the Afghan government’s financial management capabilities, it has not
conducted similar assessments of the human resources and payroll systems that will be used to implement U.S. salary
support. Potential weaknesses in disbursing salaries, including incomplete implementation of an electronic payroll
system and an inability to detect multiple supplements paid to single recipients, increase the risk of mismanagement,
waste, and abuse of U.S. salary support.

What SIGAR Recommends
SIGAR is making ten recommendations to the U.S. Ambassador to Afghanistan to improve accountability and
consistency over U.S. salary support. These recommendations address the need to establish guiding principles, key
terms, and a standardized pay scale aligned to Afghan government scales; designate a representative to monitor U.S.
agencies’ salary support and verify that positions funded by U.S. agencies are on the Afghan government’s tashkil; and
conduct a risk assessment of the Afghan government’s payroll and human resources systems used to disburse salary
support. In commenting on a draft of this report, U.S. Embassy Kabul concurred with the findings and recommendations
and outlined actions it intends to take to implement them.

                    For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil

SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                                            Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
The Full Extent of U.S. and Donor Salary Support is Unknown .................................................................... 3
The Afghan Government Relies on Donor Salary Support But Donor Practices
    Undermine Long-Term Sustainability and Capacity Development ........................................................ 7
U.S. Salary Support Has Been Ad Hoc and Inconsistently Applied Across Agencies................................... 15
The Afghan Government’s Human Resources and Payroll Systems Have Key
    Weaknesses .......................................................................................................................................... 17
Conclusion ................................................................................................................................................... 21
Recommendations ...................................................................................................................................... 21
Comments ................................................................................................................................................... 22
Appendix I: Scope and Methodology ......................................................................................................... 24
APPENDIX II: U.S. Programs that Provide Salary Support .......................................................................... 26
APPENDIX III: Comments from U.S. Embassy Kabul................................................................................... 28


TABLES

Table 1: Number of U.S. Salary Support Recipients, by Afghan Government
    Institution, as Reported in February 2010 ............................................................................................. 7
Table 2: Afghan Government and Donor Monthly Pay Scales in U.S. dollars, as of
    July 2010 ............................................................................................................................................... 10
Table 3: Implementation of Electronic Payroll in Provinces with District Delivery
    Program Key Districts, as of April 2010 ................................................................................................ 19


FIGURES AND PHOTOS

Figure 1: Salary Support Funding by Donor, as Reported to the MOF in February
    2010 (U.S. dollars in millions) ................................................................................................................. 4
Figure 2: Recipients of Salary Support by Donor, as Reported to the MOF in
    February 2010 ........................................................................................................................................ 4




SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                                                                    Page iii
ACRONYMS

ARTF                     Afghanistan Reconstruction Trust Fund
DFID                     Department for International Development
IARCSC                   Independent Administrative Reform and Civil Service Commission
INL                      Bureau for International Narcotics and Law Enforcement Affairs
LOTFA                    Law and Order Trust Fund of Afghanistan
MOF                      Ministry of Finance
SIGAR                    Special Inspector General for Afghanistan Reconstruction
UNDP                     United Nations Development Programme
UNESCO                   United Nations Educational, Scientific, and Cultural Organization
USAID                    U.S. Agency for International Development




SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                           Page iv
    Actions Needed to Mitigate Inconsistencies in and Lack of Safeguards over U.S.
      Salary Support to Afghan Government Employees and Technical Advisors


Afghanistan’s severe capacity and fiscal deficits have led donors to provide billions of dollars to help pay
the salaries of Afghan civil servants, security forces, and teachers since 2002. A core element of the U.S.
strategy in Afghanistan is strengthening Afghan governance by enhancing its capacity and reducing
corruption. In particular, the United States and other international donors have paid the salaries of
thousands of technical advisors that perform governmental functions and supplemented government
salaries to attract and retain skilled Afghans to government service. These donor-funded government
employees and technical advisors have come to be known as a “second civil service” because of the
higher salaries they are paid and the high-ranking positions they hold. Some Afghan officials, including
President Karzai, attribute increasing corruption in the Afghan government, in part, to these higher
salaries and the lack of controls to prevent waste and abuse of donor salary support funds. The United
States is also increasingly concerned about the role foreign assistance may play in fueling corruption in
Afghanistan. Secretary of Defense Robert Gates announced in September 2010 that the U.S. Forces –
Afghanistan and U.S. Embassy Kabul would put in place new procedures and controls to address this
concern.

This report assesses (1) the extent of donor salary support provided to Afghan government employees
and technical advisors since 2005, (2) the impact of donor salary support on the long-term capacity and
sustainability of the Afghan government, (3) U.S. agencies’ implementation of salary support, and (4) the
extent to which internal controls and accountability mechanisms are in place to safeguard U.S. funding
for salary support. We did not assess U.S. salary support provided through multilateral trust funds or to
the Afghan National Security Forces. 1 This report is part of a series of audits by the Office of the Special
Inspector General for Afghanistan Reconstruction (SIGAR) to address U.S. efforts to build Afghan
capacity for enhancing accountability and preventing corruption.

To accomplish these objectives, we interviewed officials from the U.S. Agency for International
Development (USAID) and U.S. Embassy Kabul; other major donors including the World Bank, the United
Nations Development Programme (UNDP), and the United Kingdom’s Department for International
Development (DFID); Afghan institutions implementing and receiving salary support, such as the
Ministry of Finance (MOF), the Independent Administrative Reform and Civil Service Commission
(IARCSC), and the Office of the President; and nongovernmental organizations implementing U.S. salary
support. We collected and analyzed contracting documents and agreements, memoranda, and
personnel data. We examined hiring and payroll documents and processes and requested verification of
a random sample of salary support recipients through the Afghan government’s payroll and human
resources systems. We conducted our work in Washington, D.C., and Kabul, Afghanistan, from January

1
 The United States is a major contributor to the Afghanistan Reconstruction Trust Fund (ARTF) and the Law and
Order Trust Fund for Afghanistan (LOTFA), both of which provide funds to pay the salaries of Afghan government
employees.



SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                       Page 1
to September 2010 in accordance with generally accepted government auditing standards. A discussion
of our scope and methodology is included in appendix I.


BACKGROUND

More than twenty years of conflict has left Afghanistan with a largely debilitated government structure.
A 2002 preliminary needs assessment found that Afghan government ministries and departments did
not have basic materials or equipment and had few experienced or qualified staff. 2 The assessment also
found that government staff had been paid intermittently, if at all, and many senior personnel had
either left the country or sought alternative part-time employment. The assessment concluded that
there would likely be a major skills gap, especially in key aspects of public administration, such as policy
formulation, planning, priority-setting, and budgeting and monitoring, that would require a
comprehensive program of recruitment, reorientation, and training.

A central goal of the Afghanistan National Development Strategy, the U.S. Afghanistan and Pakistan
Regional Stabilization Strategy, and the U.S. Integrated Civil Military Campaign Plan for Afghanistan is
the development of an effective Afghan government that can provide security and services to its people.
To do so requires a minimum of administrative capacity, predicated on a well-functioning civil service
and public financial management system. Revenue shortfalls and low civil service salaries, however,
have made it difficult for the Afghan government to attract and retain skilled professionals. Salary
support is intended to enable the Afghan government to function in the short-term, while civil service
and other public administrative reforms take root. Since 2002, international donors have provided
salary support to attract and retain skilled Afghans to serve in the government or to work as technical
advisors to build the capacity of government institutions. 3

We define salary support as both salaries paid to technical advisors and salary supplements paid to
Afghan government employees. Traditionally, technical advisors guide and mentor host government
personnel, but in Afghanistan, technical advisors can also fill a governmental role or function. For the
purposes of this audit, we examined the latter type of technical advisor. Technical advisors can be hired
directly by an international donor and seconded to an Afghan government office or be hired directly by
the Afghan government with funding provided by an international donor. According to USAID acquisition
regulations, a salary supplement is a payment that augments a host government employee’s base salary,
including incentive payments, allowances, overtime premiums, and extra payments incurred during the
performance of regular duties or during regular office hours. 4 Some donors also refer to salary
supplements as “top-ups.”

The United States has provided salary support to the Afghan government since at least 2005. The
principal U.S. agencies that provide salary support to non-security forces personnel in Afghanistan are
USAID, the Department of State’s Bureau for International Narcotics and Law Enforcement Affairs (INL),


2
 Asian Development Bank, UNDP, and World Bank, Afghanistan: A Preliminary Needs Assessment for Recovery and
Reconstruction, January 2002.
3
 The World Bank and UNDP also provide salary support directly to the Afghan government’s operating budget
through ARTF and LOTFA, respectively. The World Bank reported that ARTF provided more than $1.3 billion to pay
the salaries of 250,000 non-uniformed civil servants in all 34 provinces between 2002 and March 2010. UNDP
reported that LOTFA provided $901.3 million to pay for the salaries and allowances of the Afghan National Police
between April 2004 and June 2010. We did not evaluate salary support provided through trust funds.
4
    See USAID Acquisition Regulation 752.231-71.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                       Page 2
and U.S. Embassy Kabul’s Public Affairs Section. 5 Programs with a significant salary support component
include USAID’s Capacity Development Program, Support to the Center of Government, and District
Delivery Program; INL’s Good Performers Initiative, Counter-Narcotics Advisory Team, Justice Sector
Support Program, and the Corrections Systems Support Program; and U.S. Embassy Kabul’s Public Affairs
Section’s support to the Government Media Information Center. Salary support through USAID’s
Capacity Development Program and Support to the Center of Government ended in December 2009 and
March 2010, respectively. Details of the programs are provided in appendix II.


THE FULL EXTENT OF U.S. AND DONOR SALARY SUPPORT IS UNKNOWN

Neither the Afghan government nor international donors can account for the total number of
government employees and technical advisors that receive salary support or identify how much
recipients are paid due, in large part, to a general lack of transparency over that support. In February
2010, the MOF estimated that donors provided a total of $45 million in annual salary support to more
than 6,600 government employees and technical advisors, but these estimates were based on
incomplete data. U.S. Embassy Kabul and USAID decision-makers also lack visibility over the salary
support U.S. agencies provide to the Afghan government because data are not centrally managed and
no single office has the responsibility to collect data on or review requests for salary support.

Donors Perpetuate a Lack of Transparency by Underreporting Salary Support

For a government to operate efficiently and effectively, it needs to be able to identify who is working for
it, their duties and responsibilities, and the amount they are paid. However, according to IARCSC and
MOF officials, ministries did not always know which employees received salary supplements from
international donors or how many technical advisors were hired to perform regular governmental
functions. Donors did not collectively report on which government employees they paid or how many
technical advisors they hired to work in government offices until the Afghan government requested
salary support data in 2010, eight years after they began providing salary support. To improve
transparency over donor salary support and reduce corruption, President Karzai issued a presidential
decree in January 2010 establishing a commission to collect and analyze information on salaries paid by
donors to Afghans working in the government, including regular civil servants, technical advisors, and
contracted staff. In February 2010, the Afghan government asked donors to provide the names,
positions, and salary amounts for salary support recipients to the MOF.

Based on the data donors provided in response to this request, the MOF estimated in February 2010,
that 17 donors were providing a total of $45 million in annual salary support to about 6,600 government
employees and technical advisors. 6 The four largest donors—the World Bank, United States, United
Kingdom, and the UNDP—account for 83 percent of reported donor funding for salary support. 7 Figure
1 shows the amount of funding in salary support that the MOF reported receiving from each donor in
February 2010.

5
  The Department of Defense also provides funding to pay the salaries of the Afghan National Security Forces,
including the Afghan National Army and Afghan National Police, which we do not assess in this report. SIGAR is
assessing accountability of the Afghan National Police’s personnel management system, including salary payments,
in a separate audit.
6
 The MOF also estimated that approximately 8,000 government employees and technical advisors had received
some form of salary support in the past.
7
 MOF estimates included salary support provided through the trust funds, but excluded salary support to Afghan
security forces.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                       Page 3
     Figure 1: Salary Support Funding by Donor, as Reported to the
     MOF in February 2010 (U.S. dollars in millions)
                       Others
                        $7.7                                Total: $45million
                        17%
                                                                 World Bank
                 UNDP $4.8                                         $18.5
                   10%                                              41%



                      United                              United
                     Kingdom                              States
                       $6.1                                $7.9
                       14%                                 18%
     Source: MOF analysis of data provided by international donors.
     Note: Other donors include the Asian Development Bank; Denmark; United
     Nations Educational, Scientific, and Cultural Organization; and the World
     Health Organization.

The World Bank and the United Nations Educational, Scientific, and Cultural Organization (UNESCO)
provided salary support for 49 percent of recipients, according to data provided to the MOF. Figure 2
shows the number of recipients reported in February 2010, according to MOF estimates of donor salary
support data.


Figure 2: Recipients of Salary Support by Donor, as Reported to
the MOF in February 2010
                     Other                     World Bank
                     1,241                       1,656
         Italy        19%                         25%
         549
          8%

                                                            UNESCO
      United
                                                             1,602
     Kingdom
                                                              24%
        743
       11%
                   United                                 Total: 6,647
                 States 856
                    13%
Source: MOF analysis of data provided by international donors.
Note: Other donors include UNDP, Food and Agricultural Organization, and
Denmark.

The MOF estimates are based on incomplete information, however, because some donors
underreported the extent of their salary support. A precondition for reliable and relevant information is
the prompt recording and proper classification of data. An MOF official responsible for collecting salary
support data indicated that some donors’ submissions were missing information and some donors did
not report at all. The official stated that UNDP, for example, did not report technical advisors that are

SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                 Page 4
seconded to Afghan government offices. As a result, UNDP underreported its salary support by two-
thirds, or almost 1,000 recipients. We also found that USAID did not report salary support for technical
advisors seconded to the High Office of Oversight. Additionally, donors did not always report salary
supplements to government employees, but focused primarily on reporting salaries paid to technical
advisors. One donor official stated that they only reported the salaries of technical advisors, although
they also paid salary supplements to employees in at least two Afghan government offices. A World
Bank official considered salary supplements to be the least transparent type of salary support.
According to U.S. and donor officials, variations in donor definitions of salary supplements and technical
advisors and unclear reporting instructions led to confusion over the type of information they were
expected to report. A precondition for reliable and relevant information is the prompt recording and
proper classification of data.

U.S. Embassy Kabul and USAID DO Not Have Full Visibility over Salary Support

Neither U.S. Embassy Kabul nor USAID can fully account for the salary support U.S. agencies have paid to
Afghan government employees and technical advisors since 2005 because salary support information is
not centrally managed and no individual or office has been given that responsibility. The ability of
managers to make appropriate decisions is affected by the quality of the information available.
Information that is properly identified, collected, and communicated helps ensure reliable information is
available to managers and decision-makers to fulfill accountability obligations.

Although the United States has provided salary support since at least 2005, USAID and U.S. Embassy
Kabul did not begin collecting information on that support until 2008 and 2010, respectively. When
USAID conducted a comprehensive review of its programs to determine the extent of its salary support
in 2008, it took almost one year for USAID to compile a list of recipients and salary payments. According
to one official, the process was labor intensive because salary support data was not centrally managed
by the USAID Mission in Afghanistan. Salary support was also typically embedded within much larger
capacity-building programs, which further complicated the collection process. In addition, a USAID
official stated that it was difficult to distinguish technical advisors that perform government functions
from “traditional” technical advisors that guide and mentor Afghan government employees because
many of the latter type take on government responsibilities due to the lack of government capacity.
U.S. Embassy Kabul began collecting salary support data in early 2010 after the MOF requested that
donors provide this information. U.S. Embassy Kabul and USAID officials reported that no individual or
office is responsible for reviewing or collecting salary support information or requests.

By not collecting timely data, U.S. Embassy Kabul and USAID Mission decision-makers do not have full
visibility over payments made to salary support recipients. While taking inventory of its salary support
in 2008, after the Afghan government requested a continuation of salary support, USAID discovered that
it was funding salary supplements to Afghan government employees, including policy-makers such as
ministers and senior presidential advisors, in violation of its own policy. USAID policy guidance
discourages supplementing a host government employee’s salary, but allows exceptions if approved by
the appropriate Assistant Administrator. 8 The guidance prohibits supplementing policy-making officials’
salaries under any circumstances. At some point between 2005 and 2008, the recipients in the Office of
the President became government employees. After discovering these violations, successive USAID
Administrators twice waived the policy to allow for continued salary support to the Office of the
President. 9 A lack of strategic visibility over salary support can also lead to U.S. agencies implementing

8
 See Mandatory Reference in USAID Automated Directives System 201.3.11.10, “Policy Guidance on Criteria for
Payment of Salary Supplements for Host Government Employees” [Cable 88 State 119780, April 1988].
9
    The current policy waiver expires in March 2011.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                     Page 5
salary support independent from other U.S. government efforts. A U.S. official working with the Afghan
National Security Council said that he did not know that USAID was funding some of its employees
through The Asia Foundation until a contractor providing technical assistance raised concerns over its
influence in the National Security Council.

Based on our analysis of salary support data that U.S. Embassy Kabul collected in February 2010, USAID,
INL, and U.S. Embassy Kabul’s Public Affairs Section were providing more than $1 million in monthly
salary payments to 900 Afghan government employees and technical advisors in 16 ministries and
government offices. USAID’s 2 largest programs with salary support components provided
approximately $19 million from January 2007 to January 2010. USAID provided the vast majority of
U.S. salary support in terms of funding and recipients, accounting for more than 80 percent in both
funding and number of recipients. INL accounted for 8 percent of the funding and 10 percent of
recipients, while the Public Affairs Section had approximately 6 percent of both funding and recipients.
Table 1 provides a list of the Afghan government institutions that received U.S. salary support and the
number of recipients, as reported to U.S. Embassy Kabul in February 2010. The Ministry of Education
and the Office of the President were the two largest recipient institutions of U.S. salary support.




SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                Page 6
     Table 1: Number of U.S. Salary Support Recipients,
     by Afghan Government Institution, as Reported in
     February 2010
                                                            Number of
                                                            Recipients
     Afghan Government Institution
                                                         of U.S. Salary
                                                              Support
     Ministry of Education                                        413
     Office of the President                                      103
     Ministry of Counter Narcotics                                  95
     Ministry of Public Health                                      72
     Ministry of Higher Education                                   69
     Government Media Information Center                            51
     Ministry of Public Works                                       25
     Ministry of Commerce and Industry                              20
     Ministry of Finance                                            18
     Ministry of Energy and Water                                   10
                            a
     Da Afghanistan Bank                                                7
     Parliament                                                         7
     Ministry of Mines                                                  1
             b
     Others                                                             9
     Total                                                        900
     Source: SIGAR analysis of USAID, INL, and Public Affairs Section
     data.
     Notes:
     a
       Da Afghanistan Bank is Afghanistan’s Central Bank.
     b
       Other recipient Afghan government institutions include the Joint
     Coordination Monitoring Board, the Inter-ministerial Commission
     on Energy, and the Kabul Institute of Health.




THE AFGHAN GOVERNMENT RELIES ON DONOR SALARY SUPPORT BUT DONOR PRACTICES
UNDERMINE LONG-TERM SUSTAINABILITY AND CAPACITY DEVELOPMENT

The Afghan government relies heavily on donor-funded salary support to fill critical capacity gaps and
attract and retain skilled Afghans. Indeed, many salary support recipients hold high-ranking positions
and perform critical government functions. Donors’ practices, including paying higher salaries than the
Afghan government can sustain and providing salary support outside Afghan government planning and
budgeting processes, can undermine Afghan and international goals of building government capacity
and fiscal sustainability in the long term. Donors have not collectively addressed these problems,
although donor officials recognize the need for reforms.


SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                Page 7
The Afghan Government Relies Heavily on Donor Salary Support

Severe weaknesses in ministerial capacity and the lack of domestic revenue have left the Afghan
government heavily reliant on donor salary support to attract and retain skilled and qualified Afghans.
According to a 2009 USAID-funded assessment of corruption in Afghanistan, the Afghan government
recognizes that wages paid to most civil servants, particularly those in provinces and districts, are barely
sufficient to provide for a family much above a poverty level. 10 In 2009, USAID raised concerns about
the risk of not providing the higher salaries needed to attract personnel to high-ranking government
positions, suggesting that the Afghan government would have to fill key positions with personnel who
lack necessary skills and experience.

We found that international donors funded the majority of staff in several government offices; in some
cases, the entire staff was comprised of salary support recipients. For example, the salaries of all
71 employees at the Government Media Information Center, which is responsible for strategic
communications between Afghanistan and the international community, were funded by the United
States, United Kingdom, Canada, Netherlands, and the North Atlantic Treaty Organization. Similarly, the
Ministry of Public Health’s Grants and Contracts Management Unit, which manages donor-funded
activities, is staffed entirely with contracted Afghan employees funded by international donors. None
are direct employees of the ministry hired under the civil service law. Further, the MOF’s Aid
Management Directorate has been able to fill only 55 percent of its authorized positions, and these with
donor-funded technical advisors.

In addition, salary support recipients often hold high-ranking positions or perform critical governmental
functions, including policy-making, line management, and fiduciary roles. Salary support recipients have
included ministers, presidential advisors, directors general, and directors. The number of recipients and
the level of their responsibilities led one World Bank official to describe the Afghan government as being
run by a tier of people paid by international donors, leaving regular civil servants largely marginalized.
Similarly, a DFID official noted that donor-funded technical advisors embedded in government offices
have become the core technocrats of the Afghan government. For example, although USAID-funded
technical advisors constitute 10 percent of High Office of Oversight staff, they serve as heads of
departments, such as the Departments of Strategy and Planning, Prevention, Oversight, and Asset
Registration. 11

The Afghan government is also largely dependent on donor salary support to provide critical capabilities.
The MOF, which is widely considered to be one of the most capable ministries, is largely staffed by
UNDP and World Bank-funded technical advisors. Sixty-six percent, or 70 out of 105, of its Budget
Department employees are UNDP-funded technical advisors, according to a senior Budget Department
official. A 2007 USAID assessment of the MOF found that technical advisors played a very important
role in the day-to-day operations of the ministry. A DFID official attributed the positive results of its
MOF financial risk assessment to the high level of donor-funded technical assistance, but warned that
the MOF’s capacity would be severely weakened if donors suspended their support.




10
     USAID, Assessment of Corruption in Afghanistan, 2009.
11
  The High Office of Oversight is the Afghan government office responsible for coordinating and supervising the
implementation of Afghanistan’s National Anti-Corruption Strategy and administrative and procedural reform.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                         Page 8
Donors Pay Employees and Advisors at a Significantly Higher Rate than the Afghan Government

Donors do not have a standardized pay scale to guide the amount of salary support they provide to
Afghan government employees and technical advisors, and donors pay significantly higher salaries to
these recipients than the Afghan government can sustain on its own. Although salary support is
intended to fill critical gaps in government capacity in the short term, such practices can undermine
efforts to build the capacity of the Afghan government in the long term.

Donors pay significantly higher salaries to recipient Afghan government employees and technical
advisors than the Afghan government pays to its civil servants and political appointees. According to an
MOF official, a civil servant working in the MOF, for example, can be paid one-tenth the salary that a
UNDP technical advisor working in the same office receives. As shown in table 2, all of the donor pay
scales we examined exceeded the pay scales of the Afghan government. Even Afghan government
employees paid under the Priority Restructuring and Reform (PRR) Super Scale are paid significantly less
than donor-funded recipients. The Afghan government uses PRR Super Scale to pay higher salaries to
higher-ranking government employees, such as ministers, deputy ministers, and directors general, and
employees who have specialized skills, such as doctors.




SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                Page 9
     Table 2: Afghan Government and Donor Monthly Pay Scales in U.S.
     dollars, as of July 2010
                                                                                  Pay range
     Pay Scale
                                                                                (per month)
     Civil Service Scale (pay and grade reform)                                $100 - $650
                        a
     PRR Super Scale                                                          $400 - $1,500
                                          b
     Management Capacity Program                                              $800 - $7,572
     UNDP (UNDP-hired and paid technical advisor) (UNDP
                                                                              $438 - $2,518
       employee)
     UNDP (government-contracted technical advisor funded by
                                                                              $832 - $6,500
       UNDP)
     USAID Foreign Service National                                           $503 - $4,023
                                                     c
     U.S. Embassy Kabul, Public Affairs Section                               $350 - $5,000
           d
     INL                                                                      $200 - $3,880
     Sources: SIGAR analysis of IARCSC; USAID; UNDP; U.S. Embassy Kabul, Public Affairs
     Section; and, INL data.
     Notes:
     a
      The Afghan government uses PRR Super Scale for high-ranking government
     employees and employees with specialized skills.
     b
       The Management Capacity Program, funded by the World Bank and implemented by
     the Afghan government, recruits senior and upper mid-managers in financial
     management, human resources, policy and regulatory design, general administration,
     and project management on a higher pay scale.
     c
      The pay scale we used for U.S. Embassy Kabul’s Public Affairs Section was based on its
     salary support to the Government Media Information Center.
     d
         We used the pay scale INL used for the Good Performers Initiative.



Donors do not have a standardized pay scale for salaries paid to technical advisors or salary supplements
paid to Afghan government employees, which can lead to significant differences in salary levels that
donors paid to Afghan recipients. Table 2 shows that the highest salaries between donor pay ranges
differed by almost $5,000 per month. Without a standardized pay scale, competition among donors for
a limited pool of skilled, qualified Afghans to implement donor programs can drive up salaries and create
distortions in the local labor market. To address this issue, international donors and the Afghan
government agreed at the Kabul International Conference on Afghanistan, in July 2010, to seek an
understanding over the next 6 months on a harmonized pay scale for donor-funded salaries of persons
working within the Afghan government. It is unclear whether the harmonized pay scale will include
salary supplements.

Our analysis of U.S. salary support data also shows that salary supplements paid to Afghan government
employees can be as much as 20 times higher than civil service salaries. 12 For example, employees in
the Office of the President were paid monthly supplements between $1,500 and $4,300, in addition to
their monthly government salaries of $200. In another example, a high-ranking official received a

12
  We were not able to compare U.S. and other donors’ salary supplements paid to Afghan government employees
because we did not have access to other donors’ salary support data.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                 Page 10
monthly salary supplement of $5,000 from USAID in addition to his monthly government salary of
$2,000 and a monthly $1,400 hospitality allowance. According to an MOF official, donors pay salary
supplements that range from $20 to $9,000 per month.

Officials from the four major salary support providers and the Afghan government offices we met with
unanimously acknowledged that the Afghan government cannot afford the higher salaries donors pay,
given the government’s fiscal outlook and revenue prospects. The ability of a host government to
sustain the salary supplements that USAID pays to government employees is an important principle
underlying its policy on salary supplements. 13 USAID policy guidance requires supplements be paid only
if the payments made are in accordance with local standards and are limited to amounts that the host
government could be expected to meet from its own resources within a reasonable time. According to a
November 2009 USAID memo, an estimated 82 percent of Afghan government expenditures are paid by
international donors, and continuing government revenue shortfalls could further weaken the Afghan
government’s capacity to absorb many high-cost salaries. As a result, UNDP and USAID officials said that
the Afghan government would likely continue to need salary support in the future.

Salary support can also undermine the long-term development of Afghan government capacity by
drawing skilled, qualified Afghans away from the civil service. The civil service scale is too low to
compete with the higher salaries donors pay, further reducing the government’s ability to attract and
retain skilled Afghan professionals to government service. According to U.S. Embassy Kabul and DFID
officials, donors have inflated the salaries of skilled Afghans, and the government is priced out of the
market. USAID has raised concerns that paying higher salaries can weaken many of the institutions the
Afghan government is trying to build and donors are seeking to support. A World Bank official noted
that, even though the World Bank has a policy not to recruit Afghans that already hold government
positions, it nevertheless receives many applications from government employees because of the higher
salaries it pays. The Afghan government has undertaken several public administrative and civil service
reforms that increase civil service salaries, but these salaries (even at the top of the range) are
inadequate to attract personnel with needed skills or compete with donors’ salaries.




13
  The USAID Administrator approved the USAID Mission’s deviation from this policy in 2009 and 2010 so that the
Mission could provide salary support to employees in the Office of the President. USAID’s policy does not apply to
other donors or other U.S. government agencies.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                        Page 11
Afghan and donor officials are concerned that donor salary support may be replacing, rather than
building, the capacity of the Afghan government. Salary support undermines long-term capacity
development if recipients leave their positions after donors stop paying their higher salaries. Because
technical advisors’ salaries are often tied to specific programs, their employment ends when donors
stop providing salary support. For example, 6 of 10 technical advisors in the High Office of Oversight
who were serving as acting heads of departments left soon after USAID announced it would stop
funding salary support to the office in March 2010. In Afghanistan, technical advisors often perform
governmental functions rather than guide and mentor government employees; therefore, when they
leave their positions, the Afghan government is left without the skill sets on which they relied. The
disparity between donor and Afghan government salaries can also undermine capacity development if
recipients leave their positions to seek higher donor salaries. According to U.S. Embassy Kabul and DFID
officials, skilled Afghans are in high demand and have the ability to move easily between donor
programs. As mentioned earlier, donor competition often leads donors to offer higher salaries to recruit
Afghans to implement their programs. The Afghan government has tried to mitigate the potential loss
of government employees by finding ways to pay salaries that are higher than the civil service scale after
donor salary support ends. For example, senior officials in President Karzai’s office stated that the
recipients who were no longer receiving salary support from USAID would be paid supplements from the
government budget at about half of what they received from USAID through The Asia Foundation.
Officials remained concerned that these former recipients will leave their government positions.

Donors Often Fund Positions outside the Afghan Government’s Planning and Budgeting
Processes

Donors, particularly the United States, have provided salary support directly to government employees
and technical advisors without going through the Afghan government, thus bypassing the government’s
planning and budgeting processes. Until recently, donors may have been reluctant to provide funding
through Afghan government budget channels due to significant concerns over the government’s
financial management capacity and widespread corruption, according to the World Bank’s 2009
Vulnerability to Corruption Assessment. 14 For example, before 2010, almost all U.S. salary support was
provided outside the Afghan budget.

Providing salary support outside the Afghan government can hinder the government’s ability to plan for
the fiscal resources needed to assume responsibility for paying recipients after donor salary support
ends. The MOF is responsible for preparing, managing, and executing the national budget, but it does
not have access to or visibility over off-budget expenditures, such as donor-funded salary support,
according to a senior MOF Treasury Department official. As a result, the MOF is not able to oversee
what would otherwise be a government expenditure, exert control over its employees’ salaries, or
ensure fiscal discipline based on what it can sustain in the future. Providing salary support outside the
Afghan government also contributes to a lack of transparency over donor salary support.

The United States and other donors have started taking steps to provide more funding for salary support
through the Afghan government. According to UNDP and IARCSC officials, UNDP will no longer directly
hire technical advisors to work in Afghan government ministries but will instead provide funding to the
Afghan government to contract with technical advisors themselves. UNDP officials stated that this new
mechanism would help address the disparity in UNDP and Afghan government salaries by funding lower
salaries and supporting positions that use IARCSC-approved pay scales. When we compared the pay
scales used under both UNDP mechanisms, however, we found that the monthly salary for a UNDP-

14
  World Bank, Fighting Corruption in Afghanistan: Summaries of Vulnerabilities to Corruption Assessments, May
2009.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                      Page 12
funded, Afghan government-hired technical advisor was almost $4,000 higher than a UNDP-hired
technical advisor seconded to the Afghan government. 15 USAID also has moved to providing more
salary support through the Afghan government to improve transparency and long-term fiscal
sustainability and capacity development. USAID plans to transfer an estimated $36 million to the MOF
for salary support to priority civil servant positions in key districts in the District Delivery Program. 16
Moreover, USAID stopped providing salary support to the Office of the President through The Asia
Foundation and is now providing it through the MOF.

In addition, many donor-funded positions are not authorized in the Afghan government’s tashkil, a Dari
word meaning “organization,” which is a document that establishes a ministry’s staffing levels. For
example, only 1 of 71 donor-funded positions at the Government Media Information Center is on the
tashkil. The tashkil is an essential component of the Afghan government’s budgetary and payroll
processes. It not only drives the “wages and salaries” portion of the national budget, it is the basis on
which the government executes payroll and recruits staff. 17 Based on our discussions with officials from
the four largest providers of salary support, we found that three of them fund positions that are not on
the tashkil. Only the World Bank exclusively funds tashkil positions. Almost all of DFID’s salary support
is for technical advisors in non-tashkil positions. UNDP also funds positions that are not on the tashkil.
The United States funds both tashkil and non-tashkil positions. By funding positions that are not
authorized on the tashkil, donors may be paying for positions that the Afghan government does not
need or cannot afford in the long term, putting salary support at greater risk for waste.

We found that U.S. agencies did not always consult the tashkil in determining positions that would
receive salary support. A U.S. official noted that having a copy of the tashkil is necessary to determine if
donor-funded positions support a government office’s mission or strategic needs, but he was not able to
officially obtain a copy of the tashkil for the Afghan government institution with which he was working.
A USAID official also noted that funding tashkil positions helps ensure employees are actually filling
those positions. In March 2010, the USAID Mission to Afghanistan announced that USAID would only
fund positions authorized on the tashkil. In April 2010, however, we found that USAID had not
requested a copy of the tashkil to verify if positions they planned to fund in the Office of the President
were in fact on the tashkil. A USAID official also observed that discrepancies between ministry tashkils
in Kabul and in district offices made it difficult to determine which authorized positions were critical and
needed to be filled, which complicated implementation of the District Delivery Program.

Even though salary support recipients typically perform government functions, we found that the
Afghan government did not always transfer donor-funded positions onto the tashkil, thereby making
them part of the government structure or civil service. For example, none of the more than 490
recipients working at the Ministry of Education funded by USAID’s Capacity Development Program were



15
     We compared the high end of the pay scales used for the two types of UNDP technical advisors (see table 2).
16
  The District Delivery Program is an Afghan-led initiative to enable the Afghan government to deliver basic
government services in targeted districts throughout Afghanistan. The $40 million program provides funding to
cover operational expenses of district governments and salary support to priority civil servant positions in key
districts. Salary support will pay for hardship allowances and a portion of salaries for positions that are not
receiving pay and grade reform salary and nine positions at the Independent Directorate for Local Governance.
Provincial departments and district offices receive their tashkils from their respective ministries.
17
  Funding allocated to wages and salaries makes up over three-quarters of the Afghan government’s operating
budget and is expected to increase in Solar Year 1389 (March 21, 2010 - March 20, 2011) due to growth in the
security forces, educators, and implementation of pay and grade reforms in the civil service.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                          Page 13
authorized in the tashkil. 18 The implementing partner of this program, Deloitte, reported that the
IARCSC denied the addition of the positions to the Ministry of Education tashkil when USAID stopped
funding the program’s salary support in December 2009, despite an understanding that the positions
would be transferred. A USAID official indicated that the IARCSC could not justify adding the positions
based on their job descriptions, the already large number of positions on the ministry’s tashkil, and the
higher salaries that recipients earned. 19 As a result, all of the Deloitte-funded recipients were
terminated. The Deloitte official stated that the Ministry of Education would likely lose most, if not all,
of the capacity it had gained through the program as a result.

The Afghan government also had little incentive to transfer some donor-funded positions onto the
tashkil as long as donors continue to support them. For example, officials from two of the largest salary
support donors stated that an assessment of salary support for one government office revealed that less
than half (30 of 70) of the positions funded were necessary to the functioning of the office. However,
the Afghan government had little incentive to reduce the number of positions as long as the donor
continued to fund them. He also noted that when it became clear that, contrary to expectations, the
positions were not going to be transferred to the tashkil, the donor terminated its salary support. In a
2006 memo to USAID, The Asia Foundation requested additional salary support for the presidential chief
of staff’s office because some critical positions had not been funded in the national budget, and
therefore no Afghan government funds could be allocated for their salaries. Positions had not been
made part of the national budget because they were already funded by external sources.

Donor Coordination Has Been Limited

Officials from all the major salary support donors recognized the negative impact such support may have
on long-term fiscal sustainability and capacity development and the need to reform their salary support
practices. However, donors have not collectively addressed these issues in a coordinated way or
established principles to guide the provision of salary support to facilitate Afghan ownership in the long-
term. USAID policy guidance on salary supplements recognizes the need for coordination among donors
to avoid duplicative payments for the same project, to moderate competition to attract the limited
capable persons, and to arrive at generally comparable levels of supplementary compensation in cases
where salary supplements are necessary. According to DFID and World Bank officials, coordination
among donors has generally been focused on programs or sectors and has not specifically sought to
deconflict salary support arrangements. Officials from USAID, UNDP, and the World Bank agreed that
reforms were not possible without the agreement or involvement of major donors, particularly the
United States since it is the largest provider of bilateral salary support in Afghanistan. USAID officials
stated that donors started coordinating on salary support issues leading up to the July 2010 Kabul
International Conference on Afghanistan.




18
  The Capacity Development Program, USAID’s largest program that provided salary support (both in terms of
salary payments and number of recipients), was first implemented by Bearing Point; however, Deloitte took over
the contract after Bearing Point declared bankruptcy in 2009. For the purposes of the report, we refer to Deloitte
as the implementing partner, though some of the statements may also apply to Bearing Point.
19
  Salary payments ranged from roughly $200 per month for a provincial protection advisor (i.e., security
personnel) to more than $4,000 per month for a national program monitoring advisor.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                         Page 14
U.S. SALARY SUPPORT HAS BEEN AD HOC AND INCONSISTENTLY APPLIED ACROSS AGENCIES

U.S. agencies, collectively one of the largest providers of donor-funded salary support, have largely
implemented that support without consistent guidance on how and under what conditions it should be
provided. Since 1988, USAID has had a policy discouraging salary supplements paid to host government
employees; however, the policy has been waived at least twice for Afghanistan so the Mission could
respond to capacity needs. USAID’s 1988 policy does not apply to other U.S. agencies nor does it include
salaries paid to technical advisors embedded in government offices. The State Department does not
have a policy on salary support—either for salary supplements or for technical advisors embedded in
host government offices. As a result, U.S. agencies’ ability to strategically target their salary support
resources at prioritized needs and goals has been hindered.

We found that some U.S. salary support recipients did not always perform critical governmental
functions even though salary support was intended to fill gaps in government capacity. Our review of
reported U.S. salary support data shows that U.S. agencies funded 265 gardeners, cooks, cleaners,
drivers, security personnel, and dorm mothers (30 percent of total U.S. salary support recipients). USAID
stopped paying the salary support for more than 240 of these positions by March 2010, after we began
our audit work. Furthermore, a USAID official stated that the Capacity Development Program, USAID’s
largest program with a salary support component, did not strategically place its more than 490 salary
support recipients in the Ministry of Education according to the Ministry’s needs or program’s goals. A
2008 USAID Inspector General’s report on the program further noted that this salary support may not
have strengthened the capacity of the Afghan government. 20

In addition, although salary support was generally associated with positions, some support was tied to
specific individuals, particularly political appointees, according to a USAID official. Funding people rather
than positions, however, does not necessarily build the long-term capacity of government institutions.
Some of these recipients took their salary support with them when changing positions, according to one
U.S. official. In our review of USAID and The Asia Foundation documents, we found one senior official in
President Karzai’s office who kept his $5,000 monthly supplement when he left his position to assume a
senior position at a ministry that was not part of the USAID program.

U.S. salary support has sometimes stemmed from ad hoc requests from U.S. Embassy Kabul, USAID
Mission, and the Afghan government. For example, the USAID Inspector General reported in 2008 that
salary support was added to the Capacity Development Program after U.S. Embassy Kabul requested
that USAID pay the salaries of Ministry of Education employees for 2 years. The report questioned the
appropriateness of funding these salaries because they did not appear to contribute directly to the
program’s objectives. We found that there was no specific line item associated with salary support in
USAID contracting documents, and a USAID official said the contractor likely received direction from
USAID to begin paying these salaries. In addition, two USAID officials indicated that salary support was
sometimes awarded to the government ministries that were the most persistent in their requests or
exerted the most pressure. Moreover, U.S. officials stated that Afghan government offices sometimes
solicit salary support for its employees from multiple donors or U.S. agencies. For example, according to
a USAID official, the Independent Directorate for Local Governance requested salary support from
USAID in early 2010 after the United Kingdom did not renew its salary support. The Independent
Directorate for Local Governance subsequently sought assistance from U.S. Embassy Kabul, which
approached USAID for salary support to prevent the possible departure of high-ranking personnel.
USAID will provide salary support to nine Independent Directorate for Local Governance positions for 1

20
 USAID Office of Inspector General, Audit of USAID/Afghanistan’s Capacity Development Program (Audit Report
No. 5-306-08-012-P) issued September 30, 2008.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                   Page 15
year through the District Delivery Program. A USAID official indicated that it was difficult to withstand
pressure from other agencies or the Afghan government without strategic guidance or a focal point for
such requests.

U.S. agencies have not consistently implemented salary support, especially in terms of pay scales and
amounts. For example, USAID, INL, and U.S. Embassy Kabul’s Public Affairs Section used different pay
scales that were developed independently. An INL official stated that INL had developed a separate pay
scale for support to the Good Performers Initiative in the Ministry of Counter-Narcotics. The
Government Media Information Center also has its own pay scale. As a result, U.S. agencies provide
different levels of support to recipients in similar positions. For example, a special advisor in the
presidential chief of staff’s office received an $800 monthly supplement, while a special advisor to the
National Security Council received a $4,000 monthly supplement. Also, a spokesman in one government
office received a $4,600 monthly supplement, while a spokesman in another ministry received a $1,800
monthly supplement.

U.S. agencies have pursued increasingly divergent approaches to salary support. For example, in
November 2009, the USAID Mission issued a moratorium on new requests for salary support, proposals
that include salary support, and extensions of ongoing salary support mechanisms. Conversely,
U.S. Embassy Kabul offices such as Rule of Law and Interagency Provincial Affairs have requested
funding to provide salary support for new recipients such as the judges on the Anti-Corruption Tribunal.
In addition, U.S. Embassy Kabul and USAID established the District Delivery Program, which has a
significant salary support component, after USAID issued its moratorium. Furthermore, USAID is
providing funding for salary support through the MOF to pay salary supplements for employees in the
Office of the President and the High Office of Oversight, as well as ministries participating in the District
Delivery Program. USAID is providing funding through the MOF because of its responsibility for
managing government expenditures and dispersing government payroll. U.S. Embassy Kabul’s Public
Affairs Section is providing salary support directly to the Government Media Information Center, which
will be responsible for paying recipients’ salaries since it has its own payroll functions, according to a
U.S. mentor.

USAID identified and has taken significant steps to address problems associated with its ad hoc
approach to salary support. For example, the USAID Mission issued its November 2009 moratorium
after recognizing the problems created by its ad hoc approach. Also, USAID identified a lack of sufficient
oversight for salary support provided through implementing partners, but said they would have more
oversight and control over salary support to the Office of the President funded through the Afghan
government. As such, USAID worked with the MOF and IARCSC, with input from recipient offices, to
determine which positions in the Office of the President and the High Office of Oversight would receive
salary supplements based on agreed upon criteria. For example, positions had to contribute to inter-
ministerial coordination on substantive policy issues, be previously funded by USAID, not be highly
politicized, and be below a certain rank. In applying these criteria, USAID and the MOF were able to
reduce the number of recipients from more than 200 requested positions to 57. In addition, the
memorandum of understanding governing this support requires positions be on the tashkil, staffing
plans to facilitate the transition from donor-funded to Afghan-funded supplements be finalized, and
verification of recipients’ performance be documented. USAID also agreed not to fund any ministers or
deputy ministers through this mechanism.




SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                    Page 16
THE AFGHAN GOVERNMENT’S HUMAN RESOURCES AND PAYROLL SYSTEMS HAVE KEY
WEAKNESSES

As USAID provides more funding through the Afghan government—in accordance with the U.S. strategy
for Afghanistan—it will rely on Afghan government processes and systems to implement U.S. salary
support, particularly in hiring, promoting, and paying salary support recipients. Accountability over U.S.
assistance depends on effective internal controls in the financial management and implementation of
that assistance. 21 USAID has conducted an assessment, a component of internal control, of the Afghan
government’s financial management systems, but has not conducted similar assessments of the human
resources and payroll systems that the Afghan government will use to implement U.S. salary support.
We found several potential weaknesses in disbursing salaries that could pose a risk to the management
and use of U.S. salary support, including incomplete implementation of an electronic payroll system and
an inability to detect multiple supplements paid to recipients. Donors also have identified weaknesses
in recruiting, hiring, and managing government employees.

USAID Primarily Focused on Financial Accountability but Has Not Assessed the Afghan
Government’s Human Resources or Payroll Systems

USAID has primarily focused on ensuring financial accountability over U.S. salary support funds, but it
has not fully assessed the processes used in hiring, managing, and paying salary support recipients to
determine if the necessary internal controls are in place to safeguard U.S. salary support from
mismanagement, waste, or misuse. According to a USAID official, USAID is able to provide salary
support through the Afghan government because the MOF’s financial management capabilities were
found to be adequate in two assessments conducted in 2007 and 2009. 22 In conducting the
assessments, USAID used a standardized checklist, based principally on qualitative observation rather
than quantitative testing, to determine if various components of the MOF’s financial procedures were
satisfactory or unsatisfactory. The assessments found that the MOF had adequate financial
management capacity to effectively and efficiently record, account for, and report on funding provided
directly to the Afghan government. USAID has established other financial accountability measures
including stipulations that the Afghan government maintain accounting books, records, and other
evidence with adequate documentation, including timesheets, to support the payment of salaries and
supplements for its salary support for the Office of the President and through the District Delivery
Program. The Afghan government also has to provide USAID with information access rights to the
special accounts established for disbursing salary support and allow quarterly financial reviews and
annual audits.


21
  We did not conduct a comprehensive assessment of the internal controls in the Afghan government’s human
resources and payroll systems. We note, however, that effective internal controls provide reasonable assurances
that risks are addressed, applicable laws and regulations are complied with, accountability obligations are fulfilled,
and resources are safeguarded against loss and misuse. Internal controls call for risk assessments, policies and
procedures to address risk and achieve objectives, information and communication, and monitoring performance.
22
  USAID’s 2009 assessment also evaluated Da Afghanistan Bank (central bank) and the Control and Audit Office.
The assessment found that Da Afghanistan Bank had the capacity and capability to provide quality services
required of a modern central bank but the Control and Audit Office had limited capacity to conduct audits of
donor-funded projects. The assessment said USAID’s audit requirements for funds to be audited by approved
audit firms and USAID’s financial review and oversight mitigated the Control and Audit Office’s limited capacity.
The MOF and Da Afghanistan Bank are two central players in managing donor funding for salary support. USAID
transfers funds to Da Afghanistan Bank to be held in a special account, and the MOF authorizes the release of
funding from the special account to pay salary support.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                            Page 17
USAID has not fully assessed the financial systems used to implement salary support because neither of
its assessments of the MOF evaluated the Afghan government’s payroll processes and procedures that
USAID would be relying on to disburse payments to salary support recipients. According to USAID, the
Afghan government’s payroll system was not included in the assessments because USAID had not
envisioned further salary support would be provided. A component of internal control, risk assessment
is the process of identifying and analyzing relevant risks to the achievement of an agency’s objectives.
Identifying risks, or weaknesses, is a critical step in determining the appropriate internal control
activities needed to mitigate those weaknesses. Internal control activities include a range of policies
and procedures as diverse as authorization and approval procedures, segregation of duties, verification
and reconciliation, and controls over access to resources and records.

Similarly, USAID has not assessed the recruiting and hiring processes that the Afghan government will
used to implement salary support to determine if adequate controls exist to provide reasonable
assurance that U.S. salary support is not abused or wasted. According to one USAID official, internal
controls used in implementing donor assistance are different from and likely more difficult to manage
than financial internal controls. Line ministries are responsible for such internal controls as verifying the
identities of government employees, confirming that positions they fill are on the tashkil and that
employees do not hold multiple tashkil positions, certifying time and attendance, and maintaining
signed timesheets. According to a USAID financial management official, accountability of the line
ministries in implementing donor assistance is a bigger concern than the MOF’s financial accountability
functions, which USAID already determined were adequate.

The Afghan Government Has Key Weaknesses in its Human Resources and Payroll Systems

U.S. strategy in Afghanistan calls for building Afghan institutional capacity by increasing direct assistance
through Afghan government mechanisms and establishes the goal of providing 40 percent of U.S.
assistance through Afghan entities by December 2010. 23 As USAID provides more funding through the
Afghan government, it will be relying on Afghan government processes and systems to implement U.S.
salary support, particularly in hiring, promoting, and paying salary support recipients. Accountability
over U.S. assistance depends on effective internal controls in the financial management and
implementation of that assistance. Although USAID waived its policy on providing salary supplements,
an important tenet of the guidance is the need for mechanisms to prevent abuse in determining
recipients and amounts to be provided and ensure financial integrity in the payment system. We found
several potential weaknesses in the payroll and human resources systems on which USAID will rely to
provide salary support through the Afghan government.

First, although the MOF has established an electronic payroll system, called the Verified Payroll
Program, the system has not been completely implemented. USAID, therefore, may not be able to fully
benefit from the stronger internal controls that an electronic payroll system provides. Electronic payroll
has a number of internal controls such as photo identification that help mitigate the risk of “ghost
employees.” SIGAR reported in June 2010 that electronic fund transfer programs were credited with
reducing payroll abuse in some police units. 24 Under the Verified Payroll Program, payroll records are
computerized and government employees are registered, open personal bank accounts at commercial

23
  Participants at the London Conference on Afghanistan in January 2010 also agreed to increase the proportion of
development aid delivered through the Afghan government to 50 percent in the next two years. The support
would be conditional on the Afghan government’s progress in further strengthening public financial management
systems, reducing corruption, improving budget execution, and developing a financing strategy and government
capacity towards that goal.
24
     SIGAR-10-11, Actions Needed to Improve the Reliability of Afghan Security Force Assessments,” June 2010.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                          Page 18
banks, and are paid electronically. The Verified Payroll Program has several internal controls for
verifying employees’ identities and ensuring that correct salary payments are made to the right bank
accounts, such as employee registration and records certification.

Civil servants receiving donor-funded salary support provided through the Afghan government, such as
the District Delivery Program, may not be paid electronically because implementation of the Verified
Payroll Program is not complete. 25 As of April 2010, 56 percent of total government employees were
paid electronically through personal bank accounts, but implementation has been less extensive in the
provinces. The MOF’s goal is to pay all government employees in Kabul electronically by March 2011,
according to an MOF payroll official. Table 3 provides a breakdown of implementation of electronic
payroll in the provinces where District Delivery Program salary support recipients would work.


     Table 3: Implementation of Electronic Payroll in Provinces with District Delivery
     Program Key Districts, as of April 2010
       Civil Servants Paid      Number of
                                           Name of provinces
             Electronically      provinces
                     0%                 2    Paktika, Zabul
         Less than 25%                  5    Baghdis, Baghlan, Khost, Ghazni, Helmand, Wardak
                 25-50%                 4    Logar, Nangarhar, Kunar
        More than 50%                   7    Balkh, Paktia, Kandahar, Kunduz, Laghman, Herat, Kabul
     Source: SIGAR analysis of MOF and USAID data.

Government employees who are not paid electronically through the Verified Payroll Program typically
receive their wages in cash, which has significant internal control weaknesses. The MOF employs a
bonded trustee to collect salaries for other staff and distributes salary payments in cash to employees at
the line ministries. A senior MOF Internal Audit Department official noted that a cash payroll system
had a number of risks, including collusion to commit fraud and a large number of ghost employees. In
addition, the World Bank found in 2009 that Da Afghanistan Bank’s processes were not reliable in
ensuring proper identification of persons collecting cash for salaries. An INL financial manager said that
INL had previously paid salaries in cash before Afghanistan had developed a banking system but stopped
this practice because of its susceptibility to abuse and corruption.

Another concern in implementing Afghanistan’s electronic payroll system is the capacity of the
commercial banks to process salary payments for approximately 250,000 Afghan government
employees. According to an MOF payroll official, the MOF uses four banks to electronically process
payroll, including Kabul Bank, Standard Chartered Bank, Balkh Bank, and Azizi Bank. According to a U.S.
Treasury Department official in Afghanistan, the recent bank crisis has not impacted Kabul Bank’s ability
to pay government salaries. The U.S. and Afghan governments recognized the importance of
maintaining the integrity and timeliness of salary payments through Kabul Bank and are taking steps to
protect the system should liquidity problems threaten the distribution of salary payments. 26



25
  Salary support recipients in the Office of the President are already paid electronically because electronic
payment was a requirement under The Asia Foundation.
26
  SIGAR has initiated a review of U.S. and donor assistance for development of the banking sector and Afghan
currency control systems.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                              Page 19
Further, the Afghan government’s payroll procedures cannot detect when government employees
receive salary support from multiple donors. An important element of USAID’s waived policy
discouraging salary supplements is the restriction on paying salary supplements to government
employees who receive supplements from other sources for the same activity. We heard several
anecdotal reports from donor and Afghan officials that some salary support recipients are collecting
salary supplements from multiple donors, including some who received two or three supplements in
addition to their government salaries. 27 President Karzai has called such duplicative payments a form of
corruption.

USAID requires that recipients in the Office of the President and the High Office of Oversight not receive
additional salary payments from other donors. However, the Afghan government is unable to detect
when recipients receive multiple salary payments because the MOF is not cross-checking donor salary
support data and the Afghan government does not have a mechanism to verify donor salary support.
Although U.S. and IARCSC officials believe the MOF is cross-referencing names of salary support
recipients that donors provided following the January 2010 presidential decree, a senior MOF Budget
Department official responsible for collecting and analyzing donor salary support data said, in April
2010, that they were not doing so. The official also stated that it would be difficult for the Afghan
government to identify recipients who received multiple supplements because donors provided data
that were inconsistent and incomplete and only three MOF officials had access to the data. 28 In
addition, the Afghan government does not have a mechanism to track or verify salary payments made
by donors. A senior official in the MOF Treasury Department, which is responsible for the Afghan
government’s payroll, stated that they have no visibility over donor assistance provided outside the
Afghan government budget, including salary support.

Donors have also identified a number of weaknesses within the Afghan government’s recruiting, hiring,
and managing government employees. In its 2009 Vulnerabilities to Corruption Assessments, the World
Bank identified weaknesses in the Afghan government’s process for hiring civil servants, such as unclear
job selection criteria, poor quality or lack of job descriptions, deliberately distorted selection criteria and
requirements, systematic omission or underestimation of the basic technical requirements for positions,
lack of analysis of candidates’ technical expertise, lack of proper advertisement or late advertisement of
positions, and lack of proper reference checks. 29 The World Bank also reported constant attempts to
interfere with standard merit-based civil service appointment processes by members of the Afghan
government, including the president’s office, members of parliament, individual commanders, and
influential political persons. One donor official stated that the process of determining which positions
received salary support was vulnerable to “rent-seeking” because senior decision-makers appoint
personnel to positions that receive salary support or decide which personnel receive donor salary
support in exchange for money or favors. Furthermore, the World Bank found that staff could be paid
even when not attending work and, if attending, when they may not actually be working because of lax
management controls. In our review of donor salary support documents, we found several control
deficiencies related to Afghan government certification and verification of time and attendance. In one
case, the official responsible for certifying salary support recipients in an Afghan government office
approved his own salary supplement. Finally, the World Bank reported that payroll preparation was not
integrated with personnel files, which we confirmed through our testing of the Verified Payroll Plan in
27
  We were not able to corroborate these reports because we did not have access to other donors’ salary support
information.
28
 To encourage donors to provide sensitive salary support data, the MOF assured donors that the information
would not be made available to anyone outside the MOF Budget Department.
29
  World Bank, Fighting Corruption in Afghanistan: Summaries of Vulnerabilities to Corruption Assessments, May
2009.
SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                      Page 20
July 2010. To verify employment and salary records for salary support recipients, the MOF had to
separately contact MOF financial controllers in the line ministries and the ministries’ payroll managers
because human resources and payroll systems are not integrated. The MOF only confirmed the
employment status of salary support recipients in the Ministry of Education.


CONCLUSION

Since 2002, the Afghan government has depended on donor salary support to fill critical gaps in its
capacity, yet donors may be forfeiting long-term capacity and fiscal sustainability for the short-term
imperatives of standing up a functioning government in Afghanistan. Donor practices such as paying
salaries that far exceed what the Afghan government can sustain and providing funding outside the
government’s planning and budgeting processes have had a negative impact on the local labor market,
the development of an effective Afghan civil service, and the long-term development of Afghan
government capacity. Competition among donors for qualified Afghans further contributes to these
negative effects. As U.S. agencies provide increasingly more funding directly through the Afghan
government, the Afghan government will assume greater responsibility for oversight of U.S. salary
support funding. The weaknesses we identified in hiring, promoting, and paying Afghan recipients has
put U.S. and other donors’ salary support funding at greater risk of waste, misuse, or corruption.
Without conducting an assessment of these systems or coordinating with donors, the United States will
not be able to ensure that the necessary internal controls are in place to safeguard U.S. funding for
salary support in the future or that donors’ reforms will mitigate the negative effects of donor salary
support.


RECOMMENDATIONS

SIGAR is making ten recommendations to improve transparency and accountability over U.S. funding for
salary support and improve long-term sustainability and capacity of the Afghan government.

To mitigate the negative effects of donor salary support on long-term sustainability and capacity
development, SIGAR recommends that the U.S. Ambassador coordinate with other international donors
and the Afghan government through formal coordination mechanisms to collectively:

    1. Establish principles, including reporting requirements, to guide how and under what conditions
       donors may provide salary support in a way that facilitates a transition to Afghan responsibility.
    2. Define key terms such as salary support, salary supplement, technical advisor, and other related
       terms to facilitate information sharing and improve transparency over donor salary support.
    3. Develop and utilize a standardized salary scale that is more closely aligned with Afghan
       government-approved scales for salaries and salary supplements.

To ensure U.S. salary support is strategically targeted toward prioritized needs and goals and is
consistently applied across U.S. agencies, SIGAR recommends that the U.S. Ambassador:

    4. Designate a representative to serve as a focal point for requests for salary support and monitor
       salary support provided by U.S. agencies.
    5. Issue guidance that includes priorities, coordination mechanisms, and standardized salary
       ranges.


SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                  Page 21
    6. Identify the full extent of existing and planned U.S. salary support and determine whether that
       support is in line with this guidance and U.S. strategic goals and objectives.

To enhance safeguards and improve accountability over U.S. funding for salary support, SIGAR
recommends that the U.S. Ambassador:

    7. Require verification that positions funded by U.S. agencies are on the tashkil or are planned to
       be transferred onto the tashkil.
    8. Conduct a risk assessment of the Afghan government payroll and human resources systems and
       procedures used to disburse salary support in order to determine weaknesses in the systems
       and institute conditions or requirements to mitigate those risks.
    9. Work with the Ministry of Finance, in conjunction with other donors, to develop a mechanism to
       detect when employees receive multiple salary payments.
    10. Require that recipients of U.S. salary support be paid electronically, if appropriate financial
        controls exist.


COMMENTS

U.S. Embassy Kabul provided written comments on a draft of this report, which are provided in appendix
III. In its response, the embassy concurred with the report’s findings and recommendations. We are
pleased to note U.S. Embassy Kabul’s intent to adopt a policy requiring that all contracts or assistance
through U.S. agencies have a standard clause providing that any salaries paid to Afghan government
employees or national staff fit within the standardized salary scale developed as a result of our
recommendation.

For the first three recommendations, SIGAR recommended that the U.S. Ambassador coordinate with
other international donors and the Afghan government to collectively establish guidance, define key
terms, and develop a standardize pay scale with respect to donor-funded salary support. U.S. Embassy
Kabul agreed with those recommendations and indicated that the Ambassador could coordinate with
donors and advise the Afghan government, but that he could not control the actions of the other parties
and, therefore, should only be held accountable for actions within his control. We acknowledge this
concern and consequently urge that U.S. Embassy Kabul’s efforts be made through formal coordination
mechanisms. One such mechanism, which encourages donor coordination, would be the Joint
Coordination and Management Board. However, the U.S. Embassy Kabul would need to consider the
fact that several employees of the board (advisors and analysts) receive donor-funded salary support.

Also in its comments, U.S. Embassy Kabul mentioned two additional actions that it considers to be vital
with regard to our recommendations—establishment of an annual market survey of cost-of-living and
government affordability to determine and update the standardized salary scale, and a clearinghouse
within the Afghan government that tracks all salary payments to government employees from donors
but not donor-supported national staff who are private sector employees. We did not recommend these
actions in our report because the scope of our work did not include the analysis necessary to support
them. Nevertheless, we welcome these suggested actions and believe they could be steps in
implementing the recommendations already made in the report. As we highlight in the report, U.S.
agencies did not always know when an advisor had become an Afghan government employee.
Therefore, it is important to verify whether a salary support recipient is in fact a government employee
and receiving a government salary.


SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                   Page 22
In addition, U.S. Embassy Kabul suggested that the report was focused on Afghan government
employees and asked that the report more clearly define the term “technical advisor.” The scope of our
audit was not limited to Afghan government employees, but encompassed any salary support recipient
who performed a government function—be they a government employee or donor-hired technical
advisor. However, the audit scope did exclude technical advisors that provide capacity-building
technical assistance (i.e. guide and mentor Afghan government offices), as the embassy’s comments
correctly noted. We modified our definition for technical advisors to more clearly state this distinction.
Further, this comment illustrates the need for U.S. agencies to have common definitions of key terms
related to salary support, as we have recommended.

USAID also provided technical comments on a draft of this report, which we have incorporated where
appropriate. In its technical comments, USAID suggested several substantive changes to our
recommendations. For example, USAID asked us to include in the first recommendation “requirements
that all salary support be provided directly to the Afghan government and be reflected in the Afghan
government budget.” We did not modify our recommendation because we did not want to prescribe
either U.S. policy or specific principles that would govern U.S. and donor salary support. We strongly
believe, however, that these two issues should be part of discussions to develop those principles. We
feel the report’s analysis can help inform those discussions. In addition, USAID asked that we expand
the tenth recommendation to “insist that the Afghan government develop a single version of all ministry
tashkils to be reflected in the Human Resources Management Information System, which should serve
as the basis for payroll.” Though we did not modify our recommendation, we note that having multiple
versions of a ministry’s tashkil poses a weakness in the U.S. and Afghan governments’ ability to verify if
donor-funded positions support a government office’s mission or strategic needs. Therefore, we
reiterate our recommendation for an assessment of Afghan government human resources processes
and systems, including the Human Resources Management Information System. Such an assessment is
needed to identify such weaknesses and develop mechanisms and controls to mitigate those
weaknesses.




SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                Page 23
APPENDIX I: SCOPE AND METHODOLOGY

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of U.S. salary support to the Afghan government. The audit encompassed
salary support provided to Afghan government employees and technical advisors. We did not examine
salary support provided to Afghan National Security Forces or through the Afghanistan Reconstruction
Trust Fund and the Law and Order Trust Fund of Afghanistan. We also did not examine the use of
international technical advisors to train and mentor Afghan government employees. We assessed
(1) the extent of donor salary support provided to Afghan government employees and technical advisors
since 2005, (2) the impact of donor salary support on long-term capacity and sustainability of the Afghan
government, (3) U.S. agencies’ implementation of salary support, and (4) the extent to which internal
controls and accountability mechanisms are in place to safeguard U.S. funding for salary support.

To identify the extent of U.S. and donor salary support to the Afghan government, we relied on Ministry
of Finance (MOF) estimates of salary support that donors reported in February 2010. We were unable
to conduct a full data reliability assessment of the salary support information that donors provided to
the MOF because we did not have access to the raw data. To determine the quality of the estimates, we
interviewed officials responsible for collecting and assessing the data and officials responsible for
submitting salary support data to the MOF. Additionally, we examined salary support data that U.S.
Embassy Kabul collected in February 2010 to determine the monthly salary support U.S. agencies
provided, the number of recipients of U.S. salary support, and Afghan government offices in which they
worked. We excluded non-Afghan recipients by cross-referencing their nationalities from other data
sources. To understand the extent to which U.S. Embassy Kabul and U.S. Agency for International
Development (USAID) had visibility over the salary support it was providing, we reviewed internal
memoranda and interviewed officials responsible for implementing U.S. salary support. We also
compared data collected by U.S. Embassy Kabul with data reported to USAID leadership and the MOF.
We were not able to determine the total amount of salary support data since 2005 because U.S.
agencies did not collect this information until 2008 and we did not have access to other donors’ records.

To evaluate the impact of donor salary support on long-term capacity development and sustainability,
we reviewed documentation from and conducted interviews with officials from USAID, the Department
of State’s Bureau for International Narcotics and Law Enforcement (INL), U.S. Embassy Kabul’s Public
Affairs Section, the MOF, the Independent Administrative Reform and Civil Service Commission, the
United Kingdom’s Department for International Development, the United Nations Development
Programme, and the World Bank. We compared pay scales that we obtained from the Afghan
government and three of the four largest providers of salary support. We also examined U.S. salary
support data and met with officials from Afghan government offices to determine the extent to which
the Afghan government relied on donor salary support, particularly with respect to the rank and
function of donor-funded positions. We met with responsible officials from U.S., Afghan, and donor
agencies listed above to ascertain salary support practices and their long-term effects.

To examine how U.S. agencies implemented salary support, we obtained documentation from and
interviewed officials from—USAID, INL, and the Public Affairs Section of the U.S. Embassy Kabul. We
also met with a U.S. Forces – Afghanistan liaison to U.S. Embassy Kabul, who was involved in discussions
on U.S. salary support. We reviewed memoranda of understanding, implementation letters, contracting
documents, and cooperative agreements. We identified the different types of funding mechanisms and
various pay scales that U.S. agencies were using or had used and compared and contrasted these
various approaches. To determine the extent to which U.S. agencies had strategic guidance on



SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                               Page 24
implementing salary support, we reviewed USAID policy guidance and other memoranda explaining or
authorizing USAID’s salary support in Afghanistan and met with INL and Public Affairs Section officials to
determine if State or U.S. Embassy Kabul has a policy on salary support.

To assess the extent to which internal controls and accountability mechanisms are in place to safeguard
U.S. salary support, we identified internal controls and accountability mechanisms that were used to
implement U.S. salary support by interviewing officials from the four largest providers of salary support,
Afghan government offices that receive or implement donor salary support, and U.S. implementing
partners. We asked each of them to identify how they determined which positions would receive salary
support recipients, how much recipients would be paid, how salary payments were distributed, and how
employees’ identification and time and attendance were verified. We utilized information from these
interviews and our review of USAID and World Bank assessments of the MOF and line ministries’
capabilities. Though we did not conduct our own internal controls assessment, we identified internal
controls weaknesses in the processes and systems the Afghan government is using or would use in
implementing U.S. salary support, based on applicable international internal controls standards. We
also tested whether internal controls mechanisms were implemented a way that would provide
reasonable assurance that salary support funds were used as intended by requesting the MOF Treasury
Department Payroll Unit verify the name, position, office, and monthly salary of a randomly selected
group of U.S. salary support recipients. The MOF only confirmed the employment status of salary
support recipients in the Ministry of Education.

This report is part of a series of audits addressing U.S. efforts to build Afghan capacity to strengthen
accountability and prevent corruption. We conducted work from January to August 2010 in Kabul,
Afghanistan, and Washington, D.C., in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. This performance audit was conducted by SIGAR under the authority of Public Law
No. 110-181, and the Inspector General Act of 1978, as amended.




SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                 Page 25
APPENDIX II: U.S. PROGRAMS THAT PROVIDE SALARY SUPPORT

The U.S. Agency for International Development (USAID), the State Department’s Bureau for
International Narcotics and Law Enforcement Affairs (INL), and U.S. Embassy Kabul Public Affairs
Section’s programs that have a significant salary support component include:

Capacity Development Program

The Capacity Development Program was USAID’s largest salary support program in terms of funding and
recipients. 30 The program was intended to strengthen Afghan government institutions for good
governance by providing near-term direct capacity building of targeted public sector institutions such
that they are capable of implementing the Afghan National Development Strategy. The 5-year,
$220 million contract to implement the program was awarded to Bearing Point in 2007. Deloitte took
over the contract after Bearing Point declared bankruptcy in 2009. 31 Deloitte paid the full salaries of
Afghan independent contract employees to serve as provincial program managers, internal auditors,
infrastructure engineers, and security officers in the Ministry of Education. Deloitte officials estimated
salary support accounted for $13 million. Recipients were considered Deloitte employees. Salary
support, as a component of the program, ended in December 2009.

Support to the Center of Government

USAID’s Support to the Center of Government program provided salary support to recipients in the
Office of the President, which includes the Chief of Staff’s office, the Office of Administrative Affairs, the
National Security Council, the High Office of Oversight, and the Office of the Minister of State for
Parliamentary Affairs. The program, implemented by The Asia Foundation through a cooperative
agreement with USAID signed in 2003, aimed to consolidate the development of democratic political
processes and respond to strategic needs for stable governance. Salary support was added to the
program as early as 2005 to build the capacity of the Office of the President to (1) operate more
efficiently and effectively; (2) analyze, plan, set, and monitor policy; (3) increase the professional
capacity of the personnel within the Office of the President to manage resources and deliver services;
and, (4) respond to unanticipated needs. USAID provided $6.6 million for salary supplements to
government employees in the Office of the President. The Asia Foundation also paid the full salaries of
technical advisors they hired to work in the High Office of Oversight. USAID support to program
activities, including salary support, ended in January 2010, with the exception of support to the High
Office of Oversight, which ended in March 2010. USAID subsequently agreed to continue to provide
salary support to the Chief of Staff’s office and the High Office of Oversight until March 2011 through a
grant to the Afghan government.




30
  The Capacity Development Program was originally called Afghans Building Capacity and was renamed the Afghan
Civil Service Support Program in March 2010. A modification refined the contract’s goal to enabling the IARCSC to
build capacity and reform the main service delivery ministries of the Afghan government both at the central
(Kabul) and provincial levels.
31
  For the purposes of the report, we refer to Deloitte as the implementing partner, though some of the
statements may also apply to Bearing Point.



SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                       Page 26
District Delivery Program

In April 2010, USAID signed a memorandum of understanding with the Afghan government establishing
the District Delivery Program, which is designed to establish or improve the presence of the Afghan
government in recently secured districts. The 2-year, $40 million program is expected to enable the
Afghan government to identify, hire, and deploy civil servants to fill vacancies across key districts and to
facilitate the provision of basic services in health, education, agriculture, justice, infrastructure in each
district. USAID will provide salary support, through a grant to the MOF, to adjust civil servants’ salaries
in line with pay and grade reform and pay hardship allowances. 32 Salary support costs under this
program are expected to be $36 million, or 90 percent of the program funding. Afghan government
institutions eligible to receive salary support include the Independent Directorate for Local Governance;
the Ministries of Education, Justice, Public Health, Rural Rehabilitation and Development, and
Agriculture, Irrigation and Livestock; the Attorney General’s Office; and the Supreme Court.

Good Performers Initiative

Launched in 2007, the Good Performers Initiative provides development assistance to poppy-free or
nearly poppy-free provinces to help build infrastructure and employ local citizens. INL provides salary
support to the Good Performers Initiative Directorate in the Ministry of Counter-Narcotics.

Counter-Narcotics Advisory Team

The Counter-Narcotics Advisory Team program, previously known as the Poppy Eradication Program,
aims to reduce poppy cultivation, production, and abuse at the provincial level. Primarily Afghan-run,
teams work with the Ministry of Counter-Narcotics to support governor-led counter-narcotics efforts in
Badakshan, Balkh, Farah, Helmand, Kandahar, and Uruzgan. INL has paid salary supplements to
provincial team members and Kabul staff since 2007. Salary support will expire in March 2011.

Justice Sector Support Program and Corrections System Support Program

The Justice Sector Support Program aims to strengthen the capacity of criminal justice system
institutions and professionals. The Corrections Sector Support Program aims to develop Afghan prisons
capable of housing and rehabilitating prisoners respectively.

Government Media Information Center

Since 2008, the U.S. government has provided salary support to the Government Media Information
Center—first through USAID then through the Public Affairs Section. The Government Media
Information Center is responsible for overseeing strategic communications between the Afghan
government, Afghan citizens, and the international community. It is being merged with the Office of the
Presidential Spokesman.




32
  Through pay and grade reform, the Afghan government is implementing a new pay and grade structure with
higher salaries, merit-based recruitment, and performance-based incentives.



SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                                    Page 27
APPENDIX III: COMMENTS FROM U.S. EMBASSY KABUL




SIGAR Audit-11-5 Anti-Corruption/Capacity Building   Page 28
SIGAR Audit-11-5 Anti-Corruption/Capacity Building   Page 29
SIGAR Audit-11-5 Anti-Corruption/Capacity Building   Page 30
SIGAR Audit-11-5 Anti-Corruption/Capacity Building   Page 31
                  (This report was conducted under the audit project code SIGAR-020A).




SIGAR Audit-11-5 Anti-Corruption/Capacity Building                                       Page 32
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
